AUDIT OF PAYMENTS TO CIBER, INC.



        Audit Report No. 00-021
              June 2, 2000




       OFFICE OF AUDITS

 OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                 Office of Audits
Washington, D.C. 20434                                                                    Office of Inspector General

   DATE:                            June 2, 2000

   MEMORANDUM TO:                   Arleas Upton Kea, Director
                                    Division of Administration

                                    Donald C. Demitros, Director
                                    Division of Information Resources Management and
                                    Chief Information Officer


   FROM:                            David H. Loewenstein
                                    Assistant Inspector General

   SUBJECT:                         Audit of Payments to CIBER, Inc. (Audit Report Number 00-021)


   The Office of Inspector General (OIG) has completed an audit of payments made to CIBER, Inc.
   (CIBER). As of March 1, 2000, the Federal Deposit Insurance Corporation (FDIC) had expended
   $17 million of $20.5 million in funds authorized under eight open delivery orders with CIBER. This
   review has identified billing allowability issues and offered contract administration-related
   suggestions to assist management in the completion of these eight delivery orders and three recently
   awarded delivery orders valued at $10.2 million. During the course of our audit we communicated
   our concerns and suggestions to management to enable more timely consideration of this
   information. This is one of four ongoing OIG audits of the Division of Information Resources
   Management (DIRM) delivery order-type contracts.

   BACKGROUND

   The General Services Administration (GSA) Federal Supply Service (FSS) leverages the
   government’s buying power to help federal agencies save time by acquiring goods and services
   through pre-established contracts. The FDIC used GSA’s pre-established contracts for IT
   services and competitively awarded eight delivery orders1 to CIBER between April 7, 1998 and
   December 23, 1998. CIBER’s contract with GSA (GS-35F-4541G) is effective for the period
   covering July 2, 1997 through March 31, 2002 and dictates experience requirements and hourly
   billing rates by labor category for CIBER personnel.

   Through the delivery orders, CIBER is providing System Development Life Cycle support
   services for the Assessment Invoicing and Management System, the Multi-Tier Application
   Architecture Project, and the Electronic Travel Voucher Payment System. The delivery orders
   also engaged CIBER to support new and existing systems used by the Division of Resolutions
   and Receiverships (DRR), the Division of Supervision (DOS), and other DIRM clients, including

   1
    Delivery orders are orders for supplies or services placed against an established contract or with government
   sources for supplies.
the FDIC’s executive offices. CIBER is a provider of strategic management and information
technology consulting, enterprise applications, enterprise and network integration, application
hosting, and custom business solutions. The firm has 6,700 employees with offices in 45 cities
in the U.S. and 2 cities in Canada.

CIBER’s delivery orders are time and materials-type contracts in that they provide for services
based on direct labor hours at fixed hourly rates plus the cost of any necessary materials.
According to the FDIC Acquisition Policy Manual (APM), time and materials contracts are used
when the Contracting Officer determines that fixed-price contracting (the preferred method) is
not practical. Time and materials contracts make sense when it is difficult to provide a detailed
statement of work or to estimate the price or duration of the time required for contract
performance. The APM states that time and materials contracts should be used with caution
since they provide no positive profit incentive to the contractor for price control or labor
efficiency. The APM further states that the FDIC shall provide the appropriate oversight of
contractor performance to ensure that efficient methods are being used.

CIBER used subcontractors to perform certain tasks within some of the delivery orders. In its
proposals, CIBER specified subcontractor level of effort and a percentage of mark-up it would
apply to subcontractor billings. The GSA contract is silent regarding CIBER’s ability to mark up
subcontractor billings. Because subcontractor markups were not expressly prohibited, they were
considered an allowable charge.

OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objective of the audit was to determine whether the billings submitted by CIBER
were adequately supported and allowable under the terms and conditions of the GSA contract
and FDIC delivery orders. In addition, with only 41 percent of authorized funds expended
through the time our fieldwork began, an objective was added to identify opportunities for
improving contract administration for the balance of the open delivery orders. Our audit
included the 96 invoices that FDIC paid between July 15, 1998 and July 31, 1999. These
invoices were paid under eight delivery orders and totaled $8,334,400.

The audit methodology included the following:
• Identifying open delivery order contracts as of July 1999.
• Interviewing the Contracting Officer, four Contracting Specialists, eight DIRM Oversight
   Managers, CIBER’s Director of Contracts, and a GSA Customer/Vendor Relations
   representative.
• Reviewing delivery orders 9800291CJT, 9800328HLH, 9800506CJT, 9800216CAF,
   9800809CEU, 9801022CDY, 9800788CS2, and 9801301NS2 and the corresponding GSA
   contract.
• Gathering and examining support for 96 invoices (100 percent).
• Reviewing the invoices for compliance with contract requirements.
• Analyzing the population for duplicate payments.
• Reviewing FDIC contract monitoring files.
• Reviewing subcontractor files.
• Reviewing CIBER personnel files for 24 employees.
• Determining whether CIBER employees working on-site billed off-site rates.

                                                2
•   Testing authorization of key personnel.
•   Determining whether background investigations were performed for key personnel.
•   Determining whether the FDIC received volume discounts.
•   Testing the accuracy and completeness of inventory records for computer equipment.
•   Testing billing rates for each labor category.
•   Analyzing variances between budgeted and actual labor charges for all labor categories.
•   Providing DIRM, Acquisition and Corporate Services Branch (ACSB), and CIBER staff with
    preliminary findings to verify factual accuracy, solicit input into the causes of findings, and
    develop workable recommendations.
•   Obtaining a management representation letter from CIBER’s Director of Contracts providing
    assurance of the truth, accuracy, and completeness of information provided by CIBER
    officials during the course of the audit.

We did not perform audit steps aimed at drawing conclusions on qualitative issues. That is, we
did not examine the quality of the technical services provided to the FDIC by CIBER. We
conducted the audit from July 1999 through February 2000 in accordance with generally
accepted government auditing standards.

RESULTS OF AUDIT

Although CIBER billings generally were supported, they were not always allowable. The
unallowable charges relate to employee qualification issues, excessive or unauthorized
subcontractor markups, billing rates, and volume discounts. As a result, we are questioning
$587,621 of the $8.3 million audited.

As an added objective, we sought ways to improve contract administration to benefit the balance of
the open delivery orders included in this audit and possibly other similar ones. The following
enhancements, if implemented, will help ensure more effective contract administration.
• Reiterating to CIBER that it must adhere to the GSA contract and FDIC delivery order
    provisions,
• Obtaining and reviewing more information from CIBER on its invoices and reviewing contractor
    employee qualifications,
• Developing a procedure to help ensure that tasks are performed by the appropriate labor category
    of contractor personnel,
• Requiring that CIBER provide information on equipment it has purchased and having oversight
    managers make periodic surprise inventory counts, and
• Ensuring that the FDIC complies with GSA contract provisions when setting experience levels.

CIBER BILLED UNALLOWABLE CHARGES

We identified instances in which CIBER billed unallowable charges. These unallowable charges
relate to employee qualification issues, subcontractor markups, billing rate issues, and volume
discounts. Of the $8,334,400 in payments sampled, we question a total of $587,621, as shown in
Table 1. A discussion of each type of unallowable charge follows the table.




                                                 3
Table 1: Unallowable Charges
                            Type                                                   Amount Questioned*
 Employee Qualifications Not Commensurate with Billing Rates                                   $293,315
 Subcontractor Markups                                                                           216,974
 Rate Variances                                                                                   98,259
 Volume Discounts                                                                                 34,372
 On-Site Billing Rates                                                                            26,751
                                                     Subtotal                                  $669,671
                                 Less: Overlapping Amounts                                      (82,050)
                                                        Total                                  $587,621
Source: Analysis of files maintained by DIRM, ACSB, and CIBER
* Includes overlapping questioned costs totaling $82,050. Overlapping affects each line item of questioned costs.

Employee Qualifications Not Commensurate with Billing Rates

The FDIC used the FSS to place eight delivery orders with CIBER under GSA contract GS-35F-
4541G. This GSA contract dictates experience requirements and hourly billing rates by labor
category for CIBER personnel. Deviations from these requirements are permitted only with a
modification to the GSA contract.

CIBER billed the FDIC for services performed by 17 employees who did not meet the minimum
level of experience required by both the GSA contract and FDIC delivery orders (the Oversight
Managers identified 4 of these employees as key personnel2). A comparison of the rates billed to
rates appropriate for their actual level of experience shows that CIBER over-billed a total of
$293,315 for these 17 employees. In one example, a delivery order required that an individual with
6 years of experience fill a position as an Applications Developer IV. This labor category was
authorized to bill at an hourly rate of $86.34. However, CIBER filled this position with an
individual having only 1 year and 10 months of experience. Thus, this individual qualified as an
Applications Developer I with an hourly billing rate of $52.02. We calculated over-billings by
multiplying the difference of $34.32 by the number of hours billed. We performed similar analyses
for the other 16 employees whose experience did not match the hourly rates billed to calculate total
over-billings of $293, 315.

Subcontractor Markups

Our audit disclosed several issues related to subcontractor markups. The GSA contract is silent
on the issue of subcontractor markups. Because subcontractor markups were not expressly
prohibited, they were considered an allowable charge. Of the $8.3 million in payments audited,
CIBER billed a total of $275,718 in subcontractor markups. However, we identified that CIBER
exceeded agreed-upon markup percentages and that several subcontractors were not authorized.

We found that CIBER charged markups that exceeded agreed-upon percentages. The standard
FDIC Request for Quotation (RFQ) used to solicit firms required bidders to include in their
proposals the markup they intended to use for subcontractors. During the negotiation and award

2
    Key personnel are the contractor’s employees designated to perform essential work under the contract.
                                                         4
process for the selected contractor, the FDIC Contracting Officer was then required to review
this markup as part of the subcontractor approval process.

CIBER submitted six proposals that expressly stated (1) the name of the subcontractor firm and
(2) the percentage of markup that would be applied to subcontractor labor. However, we
identified instances in which CIBER billed the FDIC using a greater percentage markup than
stated in these proposals. We also identified instances in which CIBER used subcontractors
without the authorization of an FDIC Contracting Officer as required by the delivery orders.
Like other vendors, subcontractors are subject to fitness and integrity standards and the FDIC
was not able to ensure that the subcontractors were suitable to perform work for the FDIC.
CIBER billed $129,142 for amounts in excess of cost plus the authorized markups. CIBER also
billed $87,832 for amounts above cost for unauthorized subcontractors. Therefore, we are
questioning costs totaling $216,974.

In a related vein, CIBER submitted three proposals that expressly stated the percentage level of
effort that would be performed by subcontractor labor. This percentage dictated the level of
control necessary for the contractor to thoroughly monitor subcontractor performance. We
identified two delivery orders in which CIBER billed the FDIC a greater percentage of
subcontracted labor than stated in these proposals. Specifically, CIBER billed more for
subcontractor participation than originally stated by amounts ranging from 13 to 37 percent.
This greater percentage of subcontractor participation may have impaired CIBER’s ability to
effectively monitor subcontractor performance.

Rate Variances

We reviewed all of the 96 CIBER invoices for compliance with the GSA labor rate schedule.
Information recorded on these invoices included the name, hourly rate, and hours billed for
individuals charging time but not the labor category. Thus, we were required to trace the hourly
billing rate to the GSA labor rate schedule to obtain this information. We then confirmed the
accuracy of labor categories with the responsible FDIC Oversight Managers.

We found 161 instances in which CIBER billed the FDIC using hourly labor rates higher than
the prevailing GSA schedule rates. Our review indicates that in total, the FDIC paid $98,259 in
excess of GSA’s authorized rates.

Volume Discounts

CIBER agreed to provide volume discounts for labor hours used in three of the sampled eight
delivery orders. The discount was calculated based on a graduated scale. For example, in one
delivery order, a 1-percent discount was offered for amounts expended exceeding $1 million up
to $2 million, and a 2-percent discount was offered for amounts exceeding $2 million up to the
delivery order ceiling. This discount was to be reflected on CIBER’s monthly invoices.
However, we identified $34,372 in volume discounts that were not passed on to the FDIC and to
which it is entitled.




                                                5
On-Site Billing Rates

FDIC’s delivery orders require that, with few exceptions, work be performed at CIBER’s
facilities. As such, most labor hours are to be billed at off-site rates. Off-site rates are higher
than rates billed for work performed at FDIC facilities because of overhead costs associated with
rent, utilities, etc. Thus, FDIC Delivery Orders provide for a lower on-site hourly billing rate in
the event that CIBER personnel perform work at FDIC facilities.

The DIRM Management Analyst responsible for assigning workspace at the Seidman Center
provided us with the names of eight CIBER employees and the dates on which they had been
assigned FDIC workspace. CIBER billed the FDIC higher off-site rates for two of the eight
individuals for the period of April 11, 1998 through May 31, 1999. Thus, our review indicates
that the FDIC paid $26,751 in excess of the lower on-site rates for work performed by these
individuals.

Recommendation

(1) The Associate Director, ACSB, DOA, should disallow net payments of $587,621 for
unallowable charges.

CONTRACT ADMINISTRATION ENHANCEMENTS

As an added objective, we sought ways to improve contract administration to benefit the balance of
the open delivery orders and possibly oversight of other similar ones. The following enhancements,
if implemented, should help ensure effective contract administration:
• Reiterating to CIBER that it must adhere to the GSA contract and FDIC delivery order
     provisions,
• Obtaining and reviewing more information from CIBER on its invoices and reviewing contractor
     employee qualifications,
• Developing a procedure to help ensure that tasks are performed by the appropriate labor category
     of contractor personnel,
• Requiring that CIBER provide information on equipment it has purchased and having oversight
     managers make periodic surprise inventory counts, and
• Ensuring that the FDIC complies with GSA contract provisions when setting experience levels.

CIBER Should Adhere to Contract Provisions

As discussed in detail earlier in our report, the results of our audit show that CIBER billed the FDIC
for unallowable charges relating to employee qualification issues, excessive or unauthorized
subcontractor markups, billing rate issues, and volume discounts. Criteria governing allowable
charges is specifically outlined in the GSA contract and/or FDIC delivery orders. Accordingly, we
recommend the following:




                                                  6
Recommendation

(2) The Associate Director, ACSB, DOA, should reiterate to CIBER that it must adhere to the
provisions of the GSA contract and FDIC delivery orders to prevent recurrence of the unallowable
charges identified in Table 1.

More Information on Invoices and Added Procedures Needed

CIBER’s invoices do not contain all of the information that oversight personnel need to conduct a
thorough review of contractor billings. Apart from employee qualification issues, we believe
contract specialists and oversight managers could better detect the types of unallowable charges
identified in Table 1 if CIBER’s invoices included more information. For example, the invoices did
not identify the name of the subcontractor firms. Therefore, it was not readily apparent that some
subcontractor firms had not been authorized in advance. Much of the information that can enhance
invoice review is readily available or easy to accumulate through automated methods.

Regarding employee qualification issues, our tests showed that 17 employees did not meet the
minimum experience requirements set forth by both the GSA master contract and the delivery
orders. DIRM oversight managers identified 4 of the 17 employees as key personnel. Oversight
managers did not ensure that contract employees possessed the qualifications necessary for the levels
within the labor categories billed. Therefore, procedures are needed to ensure that CIBER and
subcontractor employees meet the experience qualifications set forth in the delivery orders.

Recommendation

(3) The Associate Director, ACSB, DOA, should ensure that CIBER revises its invoice format to
include the following information:
• Identification of each employee by employer (CIBER or name of subcontractor).
• Subcontractor markup percentages billed and authorized.
• Cumulative subcontractor charges.
• Identification of the labor category assigned to each employee.
• Cumulative charges for each labor category.
• Representation as to whether any employees worked on-site.
• Cumulative totals tracking amounts billed and the corresponding discount.

(4) The Associate Director, ACSB, DOA, and Director, DIRM, should ensure that contract
specialists’ and oversight managers’ review of CIBER’s invoices includes steps to detect
unallowable charges for subcontractor markups, rate variances, volume discounts, and off-site rates
billed for time worked on-site.

(5) The Director, DIRM, should develop procedures to ensure that (a) CIBER and subcontractor
employees meet delivery order experience requirements and (b) subcontractors are authorized in
advance and their participation is limited to levels authorized in the delivery orders.




                                                 7
Labor Costs Need to Be Aggressively Monitored

Our audit found that the labor mix used to perform tasks differed significantly from the labor mix
proposed by CIBER in response to the Requests for Quotation. For each delivery order, CIBER
proposed a labor mix of professional staff hours allocated over various labor categories that would
be used over the initial periods. At the time of our audit, sufficient time had elapsed for four delivery
orders to complete the initial periods. Analysis of these four delivery orders indicates that CIBER
used higher compensated personnel than proposed, resulting in higher average hourly rates. For
example, one delivery order provided 26,400 hours of professional labor at an average hourly rate of
$78.40. As the chart below illustrates, CIBER staffed the delivery order with higher compensated
personnel, resulting in an average hourly rate of $91.15 and a situation where CIBER exhausted the
authorized direct labor funds after expending only 22,712 hours.

        Labor Category           Hourly Rate              Proposed Hours          Actual Hours
        Project Manager          $102.99                  400                     11,398
        Sys Analyst III          $86.34                   4,000                   8,172
        App Developer IV         $80.80                   18,000                  334
        Sys Analyst II           $67.62                   0                       305
        Tech Writer II           $57.22                   4,000                   2,503
             Totals                                       26,400                  22,712
        Source: OIG Analysis

The other 3 delivery orders also showed disparities between actual and proposed average hourly
rates, respectively, as follows: $91.50 vs. $83.42 with 16,000 hours budgeted; $93.66 vs. $86.16
with 17,500 hours budgeted; and $81.56 vs. $78.14 with 15,500 hours budgeted.

According to a DIRM section chief, the labor mix proposed by CIBER to perform the tasks within a
delivery order represents an estimate of the resources that may be required. The section chief
indicated that disparities between budget and actual that approach significant thresholds are a
concern.

Disparities involving higher average hourly rates can bring about contract modifications where
contractors request increases in funding and exercise option periods earlier than planned. According
to the APM, the oversight managers are responsible for ensuring that resources are applied at
proposed levels, and the Contracting Officer is responsible for investigating situations involving
material deviations from the proposed labor mix. By implementing recommendation number three,
the oversight managers will have an added tool for tracking cumulative labor hours by delivery
order.

Recommendation

(6) The Director, DIRM, should develop procedures to ensure that CIBER’s actual staffing more
closely conforms to levels proposed and to notify the Contracting Officer in instances when actual
hours begin to deviate significantly from the proposed labor mix.




                                                   8
Controls over CIBER-Purchased Equipment Need Strengthening

Our review of CIBER invoices indicates that the FDIC has paid $205,653 for CIBER’s purchases of
computer hardware/software related to the eight delivery orders. However, the Oversight Managers
could only provide us with limited records containing information integral to the control of these
purchases. For example, the Oversight Managers were not always able to provide us with (1) the
physical location of equipment purchased by CIBER, (2) equipment serial numbers, or (3) names of
CIBER employees assigned custody of equipment. Thus, the FDIC is in the position of relying upon
CIBER to account fully for equipment it purchases on behalf of the FDIC. Oversight Managers
performing site visits to conduct surprise inspections of equipment can help remedy this situation.

According to the APM, the Oversight Manager is responsible for maintaining an itemized list of
property involved on specific contracts under his/her purview showing serial numbers, if any. The
Oversight Manager is also responsible for ensuring that delivery of the property to the contractor is
made in accordance with the contract. Finally, the Oversight Manager is responsible for providing
the Contracting Officer with a property list and a written contractor acknowledgement for receipt of
such property. During our exit conference on January 21, 2000, we were informed that DIRM and
ACSB had jointly initiated corrective action in response to our audit queries of accountability over
CIBER-purchased equipment.

Recommendation

(7) The Director, DIRM, should ensure that Oversight Managers make periodic site visits to conduct
surprise inspections of equipment and confirm FDIC official inventory records.

(8) The Associate Director, ACSB, DOA, should require that CIBER provide serial numbers,
locations, and names of personnel assigned custody of equipment that CIBER has purchased.

(9) The Associate Director, ACSB, DOA, should require that CIBER provide Oversight Managers
with an annual inventory of equipment purchases.

Coordination and Communication Are Essential Components of Effective Oversight

It is important that the Contracting Officer and Oversight Managers closely coordinate their
functions. The Oversight Manager is responsible for ensuring that the FDIC provides resources as
required by the contract and for communicating the need for any contract modifications to the
Contracting Officer. However, during the course of our audit, we identified breakdowns in
communication that resulted in control issues pertaining to the authorization of key personnel and the
performance of background investigations. We also identified inconsistencies in the application of
FDIC policies and procedures.

We reviewed CIBER invoices to determine the names of individuals charging time to the FDIC.
We then provided the Oversight Managers with a list of these names and requested confirmation
of key personnel. Although 34 individuals were identified as key personnel, we could not locate
written authorization in corporate contract files for 24 of these individuals. We contacted the
responsible Contracting Specialists and found that they were unaware that these 24 individuals
were serving as key personnel. Establishing key personnel is important since the contract award
is often based on the provision of key personnel with specific education and work experience.
                                                  9
The APM specifically requires that Oversight Managers advise Contracting Officers of changes
in contractor key personnel. After notification, the Contracting Officer is required to
(1) determine whether the requested modification is within scope, (2) negotiate any changes
required by the modification, and (3) execute the modification with the contractor. We saw no
evidence that any of these steps had been taken.

Our audit also disclosed that background investigations had not been performed for 14 key
personnel and 2 on-site employees. The APM requires that background investigations be
conducted for contractors, subcontractors, management officials, and key personnel for awards
of $100,000 or greater. The APM directs the Contracting Officer to request background
investigations from the Division of Administration’s Security Services Section before awarding a
contract. Background checks are also required for any new key employees. Based on our
testing, it appears that neither the Contracting Specialists nor the Oversight Managers requested
background investigations for these 16 individuals. This control issue was also identified in the
Audit of the Award and Administration of DIRM Service Contracts report issued on
September 30, 1999 (audit report number 99-041). The OIG recommended that the Director of
DOA ensure that all DIRM service contractor employees have background investigations
completed in a timely manner. ACSB management agreed and implemented a tracking system in
July 1999. The sampled invoices pre-dated the ACSB’s response. Because a recommendation
has subsequently been made related to performing background checks, we will not include one
here.

Finally, our audit identified other areas requiring the consistent application of FDIC policies and
procedures. For example, we found that CIBER supervisory personnel did not always approve
time sheets. We were also unable to reconcile five of CIBER’s 96 invoices with corresponding
status reports. CIBER prepared these status reports to support the invoices by providing detailed
information regarding services performed during the billing period. We also found that
(1) CIBER did not always obtain a sales tax exemption for computer equipment purchases and
(2) Contracting Specialists did not always disallow charges for sales tax.

Recommendation

(10) The Associate Director, ACSB, DOA, should reiterate to CIBER that it is responsible for
advising the Contracting Officer of proposed changes in key personnel, that exemptions from sales
taxes should be obtained, and supervisory review and approval of time sheets is a necessary internal
control.

(11) The Director, DIRM, should reiterate to oversight managers the requirements regarding
reconciling invoices with status reports.

FDIC Should Operate Within the Scope of GSA Contract Requirements

We identified six labor categories for which the FDIC lowered employee experience
requirements without obtaining a GSA contract modification or reduction in hourly billing rates.
This audit condition involved time charges submitted by three individuals meeting the FDIC’s
experience requirements but not meeting GSA experience requirements. By paying these
employees at the higher labor category rate, the FDIC in effect overpaid CIBER $74,291 by not

                                                 10
operating within the scope of GSA contract requirements. We are not questioning these costs
because they were incurred in compliance with FDIC’s contracts with CIBER.

Recommendation

(12) The Associate Director, ACSB, DOA, should ensure that the FDIC operates within the scope of
GSA contract requirements when issuing delivery orders.

CORPORATION COMMENTS AND OIG EVALUATION

On May 11 and 12, 2000, the Directors of DIRM and DOA, respectively, provided written
responses to the draft report. Management agreed to implement all 12 recommendations. The
responses are presented as Appendix I to this report.

The written responses and subsequent correspondence regarding expected completion dates for
corrective actions provided the requisites for a management decision on each of the
recommendations in the draft report. The responses are not summarized because the actions
planned or already taken are identical to those recommended.

Based on the audit work, the OIG will report questioned costs of $587,621 in its Semiannual
Report to the Congress.




                                              11
                                   CORPORATION COMMENTS                            APPENDIX I

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                   Division of Administration




                                              May 12, 2000

TO:                               David H. Loewenstein
                                  Assistant Inspector General


FROM:                             Arleas Upton Kea
                                  Director, Division of Administration

SUBJECT:                          Management Response to Draft Report: Audit of Payments to CIBER,
                                  Inc.

The Division of Administration (DOA) has completed its review of the Office of Inspector General
(OIG) Draft Report entitled “Audit of Payments to CIBER Inc.” The OIG identified 7 audit findings
and made 12 recommendations, one dealing with $587,621 in questioned costs. The Draft Report
was also addressed to the Director, Division of Information Resource Management (DIRM), and he
will be responding directly for all recommendations addressed to him.

Recommendations 1, 2, 3, 4, 8, 9, 10 and 12 in the Draft Report were addressed to the Associate
Director for Acquisition and Corporate Services, DOA, and Recommendations 4, 5, 6, 7 and 11 were
addressed to the Director, DIRM. Even though we are not required to respond to Recommendation
5, we have offered a clarifying comment dealing with the Contracting Officer’s authority on the
matter. We do not believe our response will change or alter DIRM’s response. Based on our
preliminary review, corrective actions are required for all the recommendations. Exhibit A
summarizes the 7 audit findings and all 12 recommendations; and for the DOA-related corrective
actions, the exhibit summarizes the expected completion dates, and the documentation that will
confirm completion.

MANAGEMENT DECISION

Finding #1: CIBER Billed FDIC for Unallowable Charges.

Recommendation #1: Disallow $587,621 in unallowable charges.

Management Response: We agree with the recommendation. DOA will disallow and pursue
recovery of amounts that cannot be adequately supported by the contractor. We estimate final
resolution of this recommendation by September 29, 2000.


Finding #2: CIBER Did Not Adhere to Contract Provisions.

Recommendation #2: Emphasize to the contractor that it must adhere to provisions of the GSA
contract and FDIC delivery orders to prevent recurrence of unallowable charges identified in the
previous recommendation.



                                                     12
Management Response: We agree with the recommendation. We have discussed the issues with
the contractor and rewritten sections of a subsequent CIBER delivery order to prevent similar billing
irregularities in the future. Audit findings identified in this report requiring corrective action
involving contract practices and billings will be identified and communicated in writing by the
Contracting Officer to CIBER by July 31, 2000.


Finding #3: Contractor Invoices Did Not Contain Sufficient Information to Permit A Thorough
Review of Billings.

Recommendation #3: The contractor should revise its invoice format to include information that
would fully disclose the charges to FDIC.

Management Response: We agree with the recommendation. DOA and CIBER have redesigned
the Delivery Order invoices. The new invoice format will be used by CIBER beginning with the
June 15, 2000 invoice.

Recommendation #4: The review of CIBER invoices should include steps to detect unallowable
charges similar to those identified in this report.

Management Response: We agree with the recommendation. As noted for recommendation #3, a
new invoice format has been designed for CIBER invoices. The new invoice format will also
address this recommendation. The Acquisition Policy Manual (Revision 1), issued March 31, 2000,
provides adequate guidance on this subject and does not require a corresponding adjustment.

Recommendation #5: Procedures should be developed to ensure that (a) CIBER and subcontractor
employees meet delivery order experience requirements and (b) subcontractors are authorized in
advance and their participation is limited to levels authorized in the delivery orders. (DIRM will
provide the Corporation's primary response to this recommendation.)

Management Response: Regarding employee experience requirements (Recommendation 5a),
ACSB will provide the FDIC and GSA Schedule labor category descriptions to DIRM to facilitate its
review of contractor personnel qualifications. DIRM will be responsible for matching resumes to
contractual labor categories as well as evaluating whether subcontractor employees are qualified to
work under FDIC contracts. After receiving input from DIRM, the Contracting Officer will modify a
contract, if appropriate. With respect to Recommendation 5b, only the Contracting Officer is
authorized to approve the DIRM subcontractor(s). The Contracting Officer will act to approve
contractors upon an appropriate request from DIRM.


Finding #4: Labor Costs Need to be Aggressively Monitored.

Recommendation #6: DIRM will respond to this recommendation.


Finding #5: Controls Over Government Furnished Equipment (GFE) Purchased By CIBER Are
Inadequate.

Recommendation #7: DIRM will respond to this recommendation.



                                                 13
Recommendation #8: The contractor should be required to provide serial numbers, locations, and
names of personnel assigned custody of Government Furnished Equipment (GFE) purchased by
CIBER.

Management Response: We agree with the recommendation. The CIBER Delivery Order has been
modified and now requires the contractor to include GFE serial numbers, location, contractor
custodian, and other pertinent information. Both the CIBER Delivery Order and the standard
Delivery Order will be further modified to require Quarterly GFE Monitoring Reports by June 1,
2000.

Recommendation #9: The contractor should provide Oversight Managers an inventory of all GFE
equipment purchases annually.

Management Response: We agree with the recommendation. Currently, FDIC approves all
equipment purchases (i.e., GFE) by the DIRM contractors. This information will now be compiled
by the DIRM GFE Coordinator and available for an annual inventory. Also, the Quarterly GFE
Monitoring Report will be used to review GFE purchased by CIBER and other DIRM contractors
(See Recommendation #8).


Finding #6: There Were Instances of Inconsistent Application and Non-Compliance With FDIC
Policies and Procedures.

Recommendation #10: Emphasize to the contractor that it must advise the Contracting Officer of
proposed changes in key personnel, that it should obtain exemption from sales taxes, and that
supervisory personnel must approve time sheets submitted to FDIC for payment.

Management Response: We agree with the recommendation. All audit deficiencies will be
summarized and communicated by the Contracting Officer in writing to CIBER by July 31, 2000.

Recommendation #11: DIRM will respond to this recommendation.


Finding #7: FDIC Changed Labor Experience Criteria So It Did Not Conform With GSA Contract
Requirements.

Recommendation #12: FDIC should ensure that it operates within the scope of GSA contract
requirements when issuing delivery orders.

Management Response: We agree with the recommendation. The standard Delivery Order will be
modified to require a list of all key and non-key personnel and their resumes. Further, contractors
will be required to certify that all personnel working under the contract, including subcontractor
personnel, meet minimum (GSA or FDIC) experience requirements for the labor categories that are
defined in the contracts. The certifications will then be verified on a sample basis to ensure that all
contractor employees are billed in the correct labor categories. This will be implemented by July 28,
2000. All Acquisition Section personnel will receive written instruction on this requirement prior to
implementation.



                                                   14
If you have any questions regarding this response, you may contact Andrew O. Nickle, Audit Liaison
for the Division of Administration, at (202) 942-3190.


cc:    Mike Rubino
       Deborah Reilly
       Dave McDermott
       Rodney Cartwright
       Mary Rann
       Tom Harris
       Andrew Nickle
       Richard Johnson
       Jesse Barrios




                                               15
                                                              EXHIBIT A


                                                         DIVISION OF ADMINISTRATION

                                                       SUMMARY OF MANAGEMENT DECISION
                                                                                                                         EXPECTED     DOCUMENT
                                       QUESTIONED         AMOUNT             DESCRIPTION OF CORRECTIVE                  COMPLETION    VERIFYING
NO.    FINDING DESCRIPTION                COST          DISALLOWED                    ACTION                               DATE      COMPLETION
 1    Contractor billed charges that
      were not allowable under the                                      Management agreed with the findings and
      contract.                                                         recommendation.

      a.(1) Employee qualifications
      not commensurate with billing
      rates                                $293,315          $293,315   DOA will take recovery actions for all
      a.(2) Subcontractor markups           216,974           216,974   amounts that the contractor is unable to
      a.(3) Labor rates exceeded                                        adequately support.                                           Decision
      GSA limits                             98,259            98,259                                                                Memorandum
      a.(4) Volume discounts not                                                                                                         or
      passed on to FDIC as agreed            34,372            34,372                                                                  Demand
      a.(5) On-site billing rate not                                                                                                    Letter
      charged for work performed at
      FDIC                                   26,751            26,751                                                     09/29/00
      a.(6) Less: effect of
      overlapping questioned costs          (82,050)         (82,050)   DOA will offset the final amount of recovery
                                                                        by the amount of this overlap.
      CIBER did not conform with                                        Management agreed with the finding and
 2
      provisions of the GSA contract             -0-              -0-   recommendation.
      and FDIC delivery orders.
                                                                        DOA has been working with CIBER to
                                                                        correct deficiencies noted by the OIG.                          Letter
                                                                        (a) Where corrective actions are required for     07/31/00         /
                                                                        current contracts, they will be summarized                       Draft
                                                                        and formally communicated to CIBER.              Completed      CIBER
                                                                        (b) Where contract language was found to be                    Contract
                                                                        ambiguous, the related contract sections have                  Revisions
                                                                        been revised for future CIBER contracts.


                                                                        16
                                                                   EXHIBIT A
                                                                     (Con’t)
                                                      SUMMARY OF MANAGEMENT DECISION

                                                                                                                           EXPECTED     DOCUMENT
                                       QUESTIONED      AMOUNT       DESCRIPTION OF CORRECTIVE ACTION                      COMPLETION    VERIFYING
                                          COST       DISALLOWED                                                              DATE      COMPLETION
NO.    FINDING DESCRIPTION
 3    Information provided by                                      Management agreed with the finding and
      contractor on its invoices               -0-           -0-   recommendations.
      was inadequate.                                                                                                                    Approved
      a. Invoice format did not                                    a. ACSB has completed the reformatting of CIBER                        CIBER
      provide adequate disclosure                                  invoices to include the elements recommended by                       Invoices
      of all contractor charges.                                   the OIG.                                                 06/15/00         /
      b. FDIC’s review of CIBER                                    b. Implementing the redesigned invoice (3.a.) will                      APM
      invoices did not include steps                               satisfy this recommendation. The revised APM                         Sec. 7.I.6;
      to help detect unallowable                                   contains adequate guidance.                              06/15/00    Exhibit XX
      charges.
      c.(1) Procedures do not exist                                c.(1) DIRM will respond.                                 (DIRM)       (DIRM)
      that ensure subcontractor
      employees meet minimum
      experience requirements.
      c.(2) Subcontractors were not                                c.(2) DIRM will respond.                                 (DIRM)       (DIRM)
      properly authorized in
      advance        of their
      participation as
      required under their
      contracts.
 4    Contractor labor costs not               -0-           -0-   DIRM will respond.                                       (DIRM)       (DIRM)
      monitored.
 5    FDIC lacks adequate controls                                 Management agreed with the finding and
      over Government equipment                -0-           -0-   recommendations.
      purchased by the contractor.                                 a. DIRM will respond.                                    (DIRM)       (DIRM)
      a. Surprise inventory                                        b. The CIBER delivery order was modified to require
      inspections are not being                                    GFE serial numbers, location, contractor custodian,      06/01/00    Inventory
      conducted by Oversight                                       etc. It will be further modified to also require                     Document
      Managers.                                                    quarterly GFE monitoring reports for the current and                     /
      b. CIBER did not provide                                     all future delivery orders.                                         Memorandum
      information about equipment                                  c. Currently, FDIC approves all GFE purchases.                          Or
      location and identity.                                       This information will now be compiled by DIRM            06/01/00    E-mail to
      c. Contractor equipment                                      and available for annual inventory. Also, the quar-                    DIRM
      inventory is not being kept                                  terly GFE monitoring report will be used to review
      up to date.                                                  CIBER (and all other DIRM contractors’) purchases
                                                                   of GFE. This will be implemented with 5.b.


                                                                       17
                                                                  EXHIBIT A
                                                                    (Con’t)


                                                   SUMMARY OF MANAGEMENT DECISION



                                    QUESTIONED       AMOUNT                                                           EXPECTED     DOCUMENT
NO.   FINDING DESCRIPTION              COST        DISALLOWED                                                        COMPLETION    VERIFYING
                                                                   DESCRIPTION OF CORRECTIVE ACTION                     DATE      COMPLETION

 6    Non-compliance with FDIC                                     Management agreed with the finding and
      policies and procedures.               -0-            -0-    recommendation.
                                                                                                                                    Letter
      a. Changes in contractor                                     a. DOA will summarize the contract deficiencies     07/31/00       To
      personnel, approval of time                                  and will communicate them formally to CIBER,                     CIBER
      sheets, and taking required                                  emphasizing GSA and contract compliance going
      tax exemptions.                                              forward.

      b. Oversight Managers are                                    b. DIRM will respond.                               (DIRM)       (DIRM)
      not reconciling invoice
      billings with work progress
      reports.


 7    Contractor was overpaid for                                  Management agreed with the recommendation.
      some positions that did not            -0-            -0-
      meet GSA experience                                          ACSB currently requires resumes for all ‘key’                     ACSB
      requirements. By accepting                                   contractor employees. Contractors will now also                   e-mail
      these lower requirements,                                    be required to submit a list of non-key persons     07/28/00        or
      FDIC did not conform with                                    and certify that they meet minimum experience                     Memo
      GSA contract criteria.                                       requirements. This can then be verified on a
                                                                   sample basis.



             Totals                     $587,621       $587,621




                                                                      18
Federal Deposit Insurance Corporation
3501 North Fairfax Dr., Arlington, VA 22226                          Division of Information Resources Management


                                                                 May 11, 2000


TO:                   David H. Loewenstein
                      Assistant Inspector General




FROM:                 Donald C. Demitros, Director

SUBJECT:              DIRM Management Response to the Draft OIG Report Entitled, "Audit of
                      Payments to CIBER, Inc.” (Audit No. 99-407)


The Division of Information Resources Management (DIRM) has reviewed the subject draft
audit report and generally agrees with the findings and recommendations. Both DIRM and the
Division of Administration (DOA) are responding to recommendation numbers 4 and 5. DOA
will also respond to your recommendation numbers 1-3, 8-10 and 12 under separate cover.
Responses to each of the OIG's specific recommendations directed to DIRM are provided below:

Management Decision:

Recommendation: (4) The Associate Director, ACSB, DOA, and Director, DIRM, should
ensure that contract specialists’ and oversight managers’ review of CIBER’s invoices includes
steps to detect unallowable charges for subcontractor markups, rate variances, volume discounts,
and off-site rates.

           Response: In a mandatory training course that DIRM will conduct for its Oversight
           Managers (OMs), with ACSB’s support, OMs will be advised to review their invoices for
           unallowable charges for subcontractor markups, rate variance, volume discounts, and off-
           site rates. Also, OMs will be advised in the training session to prepare a request to the
           contracting officer to obtain on-site rates if these rates are not in their contract and they
           have a subsequent requirement for on-site work. This course will be developed and
           presented by the end of the third quarter, 2000.

Recommendation: (5) The Director, DIRM, should develop procedures to ensure that (a)
CIBER and subcontractor employees meet delivery order experience requirements and (b)
subcontractors are authorized in advance and their participation is limited to levels authorized in
the delivery orders.

           Response: In a mandatory training course that DIRM will conduct for its Oversight
           Managers, with ACSB’s support, OMs will be advised to ensure that (a) contractors and
           their subcontractors meet the labor category experience requirements and (b) that
           subcontractors are authorized in advance by the contracting officer and limited to levels


                                                     19
       authorized in the delivery orders. By the end of the third quarter, 2000, DIRM will
       develop a procedure that addresses these concerns.

Recommendation: (6) The Director, DIRM, should develop procedures to ensure that CIBER’s
actual staffing more closely conforms to levels proposed and to notify the Contracting Officer in
instances when actual hours begin to deviate significantly from the proposed labor mix.

       Response: In a mandatory training course that DIRM will conduct for its Oversight
       Managers, with ACSB’s support, OMs will be advised to closely monitor their
       contractor’s actual staffing hours against those proposed. Further, they will be advised
       that a procedure will be issued requiring them to perform a quarterly review of their
       proposed labor category hours versus actuals. If a significant increase is shown in any
       category, OMs will be required to send an email to their contract specialist notifying
       them of the finding and providing an explanation for the increase. Both the training and
       procedure will be completed by the end of the third quarter, 2000.

Recommendation: (7) The Director, DIRM, should ensure that Oversight Managers make
periodic site visits to conduct surprise inspections of equipment and confirm FDIC official
inventory records.

       Response: DIRM is currently addressing this problem. Following ACSB's completion of
       GFE contract language updates to existing DIRM contracts, DIRM issued a
       memorandum titled “DIRM Government Furnished Equipment (GFE) Policies and
       Procedures." This memorandum was issued April 11, 2000 to DIRM’s Oversight
       Managers (OMs). The memorandum outlines responsibilities and procedures for
       acquiring, safeguarding, and managing IT assets assigned to contractors, and for
       reallocating GFE. It further states that DIRM’s GFE Coordinator will work with OMs to
       ensure that all GFE is inventoried and entered into ITAMS, DIRM’s IT Asset
       Management System. The DIRM GFE Coordinator and his supporting staff are in the
       process of contacting each OM to coordinate the physical inventory and data capture of
       GFE equipment at each contractor’s site. All contractor off-site inventory and data
       capture activities are scheduled to be completed by June 30, 2000. In addition, in the
       mandatory training course that DIRM will conduct for its OMs, the OMs will be advised
       to conduct surprise inspections at off-site contractor locations to verify equipment using
       the ITAMS inventory.

Recommendation: (11) The Director, DIRM, should reiterate to Oversight Managers the
requirements regarding reconciling invoices with status report.

       Response: In a mandatory training course that DIRM will conduct for its Oversight
       Managers, with ACSB’s support, OMs will be advised to reconcile their invoices as
       closely as possible with status reports. The training will be completed by the end of third
       quarter, 2000.

Please address any questions to DIRM's Audit Liaison, Rack Campbell, on (703) 516-1422.



                                               20
                                                                                                                                APPENDIX II
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report and subsequent discussions with management
representatives.




                                                                      21
                                                                                                  Documentation That                    Management
 Rec.                                                                            Expected            Will Confirm        Monetary       Decision: Yes
Number          Corrective Action: Taken or Planned/Status                    Completion Date        Final Action        Benefits          or No
         The Associate Director, ACSB, DOA, agreed with the
                                                                                                                         $587,621 in
         recommendation. DOA will disallow and pursue recovery of
  1                                                                          September 29, 2000   Settlement Agreement   disallowed         Yes
         amounts that cannot be adequately supported by the
                                                                                                                            costs
         contractor.
         The Associate Director, ACSB, DOA, agreed with the
         recommendation.
         DOA has discussed the issues with the contractor and
         rewritten sections of a subsequent CIBER delivery order to             July 31, 2000      Letter/Draft CIBER       Not
  2                                                                                                                                         Yes
         prevent similar billing irregularities in the future. Audit                               Contract Revisions    Quantifiable
         findings identified in this report requiring corrective action
         involving contract practices and billings will be identified
         and communicated in writing by the Contracting Officer.
         The Associate Director, ACSB, DOA, agreed with the
         recommendation. DOA and CIBER have redesigned the                                          Approved CIBER          Not
  3                                                                             June 15, 2000                                               Yes
         Delivery Order invoices. The new invoice format will be                                        Invoices         Quantifiable
         used by CIBER beginning with the June 15, 2000 invoice.
         The Associate Director, ACSB, DOA, and the Director,
         DIRM, agreed with the recommendation.
         A) As noted for recommendation #3, the newly designed
             CIBER invoice format will also address this
             recommendation.
         B) In a mandatory training course that DIRM will conduct                                 A) Approved CIBER
             for its Oversight Managers (OMs), with ACSB’s                   A) June 15, 2000        Invoices
             support, OMs will be advised to review their invoices                                B) Course material
             for unallowable charges for subcontractor markups, rate         B) September 29,
                                                                                2000                 and verify
             variance, volume discounts, and off-site rates. Also,                                                          Not
  4                                                                                                  attendance.                            Yes
             OMs will be advised in the training session to prepare a        C) June 8, 2000                             Quantifiable
             request to the contracting officer to obtain on-site rates if                        C) Meeting/session
             these rates are not in their contract and they have a                                   agenda/handouts
             subsequent requirement for on-site work.                                                and verify
         C) DIRM and DOA will jointly conduct a meeting/review                                       attendance
             session with OMs and contract specialists of current
             CIBER problems. This session will include a briefing on
             the audit report findings and the changes being
             implemented, especially with regard to the new invoice
             format and the OMs responsibilities.



                                                                                   22
                                                                                                Documentation That                   Management
 Rec.                                                                         Expected             Will Confirm       Monetary       Decision: Yes
Number          Corrective Action: Taken or Planned/Status                 Completion Date         Final Action       Benefits          or No
         The Director, DIRM, agreed with the recommendation.
         A) In a mandatory training course that DIRM will conduct
             for its OMs, with ACSB’s support, OMs will be advised
             to ensure that (a) contractors and their subcontractors
             meet the labor category experience requirements and (b)
             that subcontractors are authorized in advance by the
             contracting officer and limited to levels authorized in the
             delivery orders.
         B) The Associate Director, ACSB, DOA, also provided a
             secondary response. Regarding employee experience
             requirements (Recommendation 5a), ACSB will provide                                Course material and      Not
  5          the FDIC and GSA Schedule labor category descriptions         September 29, 2000                                            Yes
                                                                                                verify attendance.    Quantifiable
             to DIRM to facilitate its review of contractor personnel
             qualifications. DIRM will be responsible for matching
             resumes to contractual labor categories as well as
             evaluating whether subcontractor employees are
             qualified to work under FDIC contracts. After receiving
             input from DIRM, the Contracting Officer will modify a
             contract, if appropriate. With respect to
             Recommendation 5b), only the Contracting Officer is
             authorized to approve the DIRM subcontractor(s). The
             Contracting Officer will act to approve contractors upon
             an appropriate request from DIRM.
         The Director, DIRM, agreed with the recommendation.
         In a mandatory training course that DIRM will conduct for
         its Oversight Managers, with ACSB’s support, OMs will be
         advised to closely monitor their contractor’s actual staffing
         hours against those proposed.                                                          Course material and
                                                                                                verify attendance.       Not
  6                                                                        September 29, 2000                                            Yes
         Further, they will be advised that a procedure will be issued                                                Quantifiable
                                                                                                Procedure document
         requiring them to perform a quarterly review of their
         proposed labor category hours versus actual. If a significant
         increase is shown in any category, OMs will be required to
         send an email to their contract specialist notifying them of
         the finding and providing an explanation for the increase.




                                                                                 23
                                                                                             Documentation That                     Management
 Rec.                                                                        Expected           Will Confirm         Monetary       Decision: Yes
Number          Corrective Action: Taken or Planned/Status                Completion Date       Final Action         Benefits          or No
         The Director, DIRM, agreed with the recommendation.
         A) DIRM is currently addressing this problem. Following
             ACSB's completion of GFE contract language updates to
             existing DIRM contracts, DIRM issued a memorandum
             titled “DIRM Government Furnished Equipment (GFE)
             Policies and Procedures." This memorandum was issued
             April 11, 2000 to DIRM’s Oversight Managers (OMs).
             The memorandum outlines responsibilities and
             procedures for acquiring, safeguarding, and managing IT                         A) Memorandum
             assets assigned to contractors, and for reallocating GFE.
                                                                         A) Completed,       B) Inventory
             It further states that DIRM’s GFE Coordinator will work
                                                                            April 11, 2000      Documents
             with OMs to ensure that all GFE is inventoried and                                                         Not
  7          entered into ITAMS, DIRM’s IT Asset Management              B) June 30, 2000    C) Course material                         Yes
                                                                                                                     Quantifiable
             System.                                                     C) September 29,       and verify
         B) The DIRM GFE Coordinator and his supporting staff               2000                attendance.
             are in the process of contacting each OM to coordinate
             the physical inventory and data capture of GFE
             equipment at each contractor’s site. All contractor off-
             site inventory and data capture activities are scheduled
             to be completed by June 30, 2000.
         C) In addition, in the mandatory training course that DIRM
             will conduct for its OMs, the OMs will be advised to
             conduct surprise inspections at off-site contractor
             locations to verify equipment using the ITAMS
             inventory.
         The Associate Director, ACSB, DOA, agreed with the
         recommendation.
         A) The CIBER Delivery Order has been modified and now                               A) Draft CIBER
                                                                         A) Completed           Contract Revisions
             requires the contractor to include GFE serial numbers,                                                     Not
  8          location, contractor custodian, and other pertinent         B) June 1, 2000     B) Quarterly GFE                           Yes
                                                                                                                     Quantifiable
             information.                                                                       Monitoring
         B) Both the CIBER Delivery Order and the standard Delivery                             Reports
             Order will be further modified to require Quarterly GFE
             Monitoring Reports by June 1, 2000.
         The Associate Director, ACSB, DOA, agreed with the                                  A) Memorandum or
         recommendation.                                                 A) June 1, 2000        email to DIRM.          Not
  9                                                                                                                                     Yes
         A) Currently, FDIC approves all equipment purchases (i.e.,      B) June 1, 2000     B) Quarterly GFE        Quantifiable
             GFE) by the DIRM contractors. This information will                                Monitoring

                                                                                24
                                                                                                Documentation That                   Management
 Rec.                                                                         Expected             Will Confirm       Monetary       Decision: Yes
Number          Corrective Action: Taken or Planned/Status                 Completion Date         Final Action       Benefits          or No
              now be compiled by the DIRM GFE Coordinator and                                      Reports
              available for an annual inventory.
         B) Also, the Quarterly GFE Monitoring Reports will be used
              to review GFE purchased by CIBER and other DIRM
              contractors (See Recommendation #8).
         The Associate Director, ACSB, DOA, agreed with the
         recommendation.
         Emphasize to the contractor that it must advise the
         Contracting Officer of proposed changes in key personnel,                                                       Not
  10                                                                         July 31, 2000        Letter to CIBER                        Yes
         that it should obtain exemption from sales taxes, and that                                                   Quantifiable
         supervisory personnel must approve time sheets submitted to
         FDIC for payment.

         The Director, DIRM, agreed with the recommendation.
         In a mandatory training course that DIRM will conduct for                              Course material and      Not
  11     its Oversight Managers, with ACSB’s support, OMs will be          September 29, 2000                                            Yes
                                                                                                 verify attendance.   Quantifiable
         advised to reconcile their invoices as closely as possible with
         status reports.
         The Associate Director, ACSB, DOA, agreed with the
         recommendation.
         The standard Delivery Order will be modified to require a list
         of all key and non-key personnel and their resumes. Further,
         contractors will be required to certify that all personnel
  12     working under the contract, including subcontractor                 July 28, 2000      ACSB email or Memo
                                                                                                                         Not
                                                                                                                                         Yes
         personnel, meet minimum (GSA or FDIC) experience                                                             Quantifiable
         requirements for the labor categories that are defined in the
         contracts. The certifications will then be verified on a sample
         basis to ensure that all contractor employees are billed in the
         correct labor categories.




                                                                                 25
